No. 19-590

In The

^npvtmt (Eaurt nf t\\t

Jitaies

Michael A. Deem, Petitioner,
v.
ic

John P. Colangelo,
Justice of the.Supreme Court,
County of Westchester
ON PETITION FOR A WRIT OF CERTIORARI
TO THE STATE OF NEW YORK COURT OF APPEALS

SUPPLEMENTAL BRIEF

Michael A. Deem
Pro Se
i

26 Keystone Road
Yoykers, NY 10710
9U-482-3867

*
■ CURRY & TAYLOR ♦ 2D2-350-9073

6

!
1

1
REASONS FOR GRANTING PETITION
V.

THE CUSTOM AND PRACTICE OF THE
SECOND DEPARTMENT AND NEW YORK
STATE UNIFIED COURT SYSTEM OF
APPOINTING FORENSIC EVALUATORS TO
CONTROL ALL DISCOVERY IN ALL
CONTESTED CUSTODY DISPUTES WILL
CONTINUE WITHOUT INTERVENTION BY
THIS HONORABLE COURT.

Petitioner argued in Point V of the petition at
bar that,
This Honorable Court is the only forum
available to fit parents and their children to
remove the ilk present in the New York
State Unified Court System. The petition at
bar must be granted.
Petition for Writ of Certiorari at 19-20.
On October 30, 2019, the Second Circuit Court of
Appeals rendered a decision in Deem v. DiMella-Deem,
et al., 18-2266 (2d Cir. 2019) (Dkt. 213). The Second
Circuit affirmed the district court’s sica sponte
dismissal of Petitioner’s complaint against those
responsible for effectively and summarily terminating
his parental rights on June 13, 2018, based on fabricated
allegations that by all accounts any reasonable person
would know were in fact fabricated.

3

Deem v. DiMella-Deem, 18-2266 at 15 (internal citations
and brackets omitted).
The Second Circuit’s decision in Deem v.
DiMella-Deem1 underscores Petitioner’s reason in
Point V for granting the instant petition, “[t]his
Honorable Court is the only forum available to fit
parents and their children to” vindicate their rights. No
other federal court available will hear Petitioner’s
claims regarding his and his children’s commensurate
fundamental constitutional rights, and New York State
courts do not recognize those rights to be “substantial
constitutional [rights],” worthy of redress.
If the petition is not granted the political “party
bosses” this Court referenced in N.Y.S. Bd. of Elections
v. Lopez Torres, 522 U.S. 196, 128 S.Ct. 791, 169
L.Ed.2d 665 (2008), will have succeeded in creating an
elaborate scheme designed to separate fit parents,
predominantly fathers, from their children and money,
under color of law, by deception and trick, through use
of mail and wires. See, Deem v. DiMella-Deem, 19-1630
(2d Cir. 2019) (Dkt. 96, Letter Reply Brief). And it will
be untouchable.
CONCLUSION
For the foregoing reasons and good cause shown,
Petitioner respectfully requests that this Honorable
Court grant this petition because substantial
constitutional questions are in fact involved.

1 A petition for hearing en banc was filed on November 7,2019.

